DO    F 1325.8
     (8-89)
EFG (07-90)

United States Government                                                         Department of Energy


memorandum
     DATE:       December 18, 2006                                            Report Number: OAS-L-07-04
REPLY TO
ATTN OF:         IG-32 (A07LL039)

SUBJECT:         Report on "Inquiry to the Hotline Complaint on Possible Design Mistakes and Cost
                 Overruns of the Linac Coherent Light Source Project at Stanford Linear Accelerator
                 Center"

       TO:       Manager, Stanford Site Office

                 INTRODUCTION AND OBJECTIVE

                 The purpose of the Stanford Linear Accelerator Center (SLAC) Linac Coherent Light
                 Source (LCLS) project is to provide laser-like radiation in the x-ray region of the spectrum
                 that is 10 billion times greater in peak brightness than any existing coherent x-ray light
                 source. The LCLS will be an important tool in the study of, among other things, materials
                 structure at the nanoscale. The total estimated cost for the LCLS project is $315 million
                 ($36 million for design and $279 million for construction, equipment, and site preparation).

                 SLAC awarded a firm fixed-priced contract for the design of the site and the facilities that
                 will house the equipment, researchers, and support personnel. Based on design drawings,
                 SLAC issued a request for bids on the construction phase of the project. SLAC
                 subsequently awarded several firm fixed-price contracts to start preparing the site and
                 building the facilities. Site preparation started in October 2006; construction of the facilities
                 is scheduled to begin in February 2007.

                 On September 5, 2006, the Office of Inspector General received a Hotline complaint
                 alleging design mistakes and cost overruns on the LCLS project. The complainant alleged
                 that the LCLS project's design plans were not structurally sound in that there were mistakes
                 on the seismic load of the conventional facilities, and a drainage system had not been
                 designed for a portion of the project. The complainant further stated that these issues were
                 brought to management's attention in February 2006 and that SLAC management was not
                 responsive. In a subsequent discussion, the complainant also alleged that the project cost
                 had dramatically increased from $80 million to $120 million resulting in a $40 million cost
                 overrun.

                 Due to the potential safety implications of the complaint, we initiated an inquiry to
                 determine if SLAC management took appropriate action to address the allegations.

                 CONCLUSIONS AND OBSERVATIONS

                 SLAC management, including the LCLS project management team, initiated a peer review
                 and an internal project review to address the allegations relevant to the facility design.
                 Based on these reviews, SLAC officials concluded that the basic design was structurally
                 sound. Also, based on our discussions with SLAC and Stanford Site Office officials, along
                                                  -2-

 with our review of procurement documents, we concluded that the alleged $40 million cost
 overrun was overstated and resulted from the difference between the Government's
 independent cost estimate and the updated estimate based on actual cost data received from
 the bid results.

                                        Facilities Design

SLAC management took prompt action to address allegations about the soundness of the
facilities design. Specifically, the SLAC LCLS project management team initiated an
internal review of the design after being notified by the complainant about possible design
errors in February 2006. Additionally, the SLAC Director established a peer review team
composed of representatives from his office and an outside structural engineering firm to
address the allegations, one week after being informed by the complainant on April 30,
2006. As part of the peer review team effort, the structural engineering firm employed a
geotechnical firm to independently review previous geotechnical work that was used to
design the LCLS site and facilities. In conducting its review, the structural engineering firm
also consulted with seismic and building consultants from thp University of California,
Berkeley Campus and used the Bay Area Rapid Transit system as the model during the
consultation.

 Management informed us that the two review teams concluded that the basic design of the
 site and the facilities was structurally sound. Further, the structural engineering firm agreed
 with-the protocols and procedures used in developing the LCLS design. However, the
structural engineering firm was unable to conclude at what level of seismic activity the
facilities would structurally fail since there were no specific building codes for an
underground structure such as the LCLS project. Therefore, engineering judgment was a
factor in determining the level of design and construction that would be adequate in building
an underground structure to meet seismic activities for the region. With regard to the.
drainage system, both the structural engineering firm and the SLAC LCLS management
team concluded that the drainage system had been included in the design, although it could
have been better highlighted in the design drawings.

SLAC plans to direct some design improvements to maintain a more conservative position
on the soundness of the LCLS facilities. Specifically, SLAC has directed that design
changes be made for:

  * Additional strengthening at specific locations where columns and beams join together;
  * Other seismic improvements as suggested by the peer review; and,
  * Additional drainage improvements.

Because these additional improvements could not be shown as design defects, but rather as
enhancements requested by SLAC, the project will absorb the cost of changes to the design
contract.

The Director stressed that the complainant was kept informed on the progress of the peer
review, but had also been informed that he needed to let the review process be completed.
                                                  -3-

                                        Cost Estimates

Regarding the alleged $40 million cost overrun, our iriquiry indicated that the increase in the
project cost was about $25 million and was due to the difference between the Government's
independent cost estimate for the construction phase of the project compared to the actual
cost data from bids received from construction and.supply firms. Management informed us
that the independent cost estimate was based at the 100 percent design stage and was
developed based on estimates provided by the design firm, the construction general
contractor, a company that performs tunneling work, and a company that performs above
ground construction. The Government developed an independent cost estimate of
$75 million based on the four estimates. However, once the bids were received, the actual
costs were higher than estimated. Based on actual cost data, SLAC's revised estimate
increased the construction cost to $100.5 million. A determination" by SLAC found that the
basis for the disparity was that market conditions had changed significantly for the region.
Their review found that the project was competing for building materials (such as steel and
concrete). Further, construction demand in the region was greater than the available supply
of builders and suppliers, and there was also a low turnout iq response to the request for
bids.

The Stanford Site Office LCLS project manager was informed by the SLAC LCLS project
management team of the seismic and drainage issues when the complainant brought his
concerns to their attention in February 2006. Your office was also aware of the additional
construction costs above the Government's independent cost estimate and, with SLAC, is
currently looking at options to address this funding shortfall.

Given planned management actions to address the design and cost issues, we are not making
recommendations at this time. However, we plan to follow-up on the resolution of these
issues during our annual risk assessment of SLAC, in February 2007. Accordingly, no
response is necessary to this report.

We thank you and your staff, as well as SLAC management, for the cooperation received
during this inquiry.



                                              rge
                                              4         Collard
                                          Assistant Inspector General
                                            for Performance Audits
                                          Office of Inspector General

cc: Chief of Staff
    Audit Liaison, Office of Science, SC-32.1
    Team Leader, Audit Liaison Team, CF-1.2
